                            CLOSEOUT FOR M-92070029

       On June 23, 1992, OIG received an allegation of misconduct in science from the




&e corn lainant- alleged that subject #1, in conjunction with subjects #2,
-    #     3    ,    ,
                                                                              -
        without proper citation or indentation tor sections of transcribed material. In addition,

                                                 a graduate student, both in the same department
as-subiect #I. had transcribed or closelv warawhrased oortions of his MS thesis in their iointlv




thesis contained transcribed or closely paraphrased portions of the complainant's MS thesis.
However, he was not indicated as a subject in this case by the complainant because he had cited
the complainant in his thesis.

        In response to OIG's inquiry, two of the subjects indicated that the institution had
investigated these allegations and detennined that no niisconduct was involved. However, the
following changes in subject #l's thesis were instituted as a result of the institutioti's
investigation. Subject #l's MS thesis was revised to. include twenty-five references to the
complainant's MS thesis and two references to the fellow graduate stodent's thesis. Subsequent
examination of subject #l's revised MS thesis verified that these references were in her thesis.
In addition, at the investigation committee's recorntnendation, subject #1 wrote a letter to the
editor of the journal in which their jointly authored paper appeared explaining the omission of
the reference to the complainant's MS thesis. In this same letter to the editor, subject #1 stated
that the paper cited her MS thesis which also referenced the complainant's MS thesis. The letter
was published in the journal. OIG concluded that the institution's actions in this situation have
protected the scientific literature by assuring the record was corrected to cite the original work
of the scientists involved.


                                           Rage 1 of 2                                      92-29
                            CLOSEOUT FOR M-92070029
        With regard to any action by NSF in this case, NSF's misconduct regulation states that
NSF investigates allegations of misconduct involving "activities funded by NSF" (45 CFR
5689.1). The acknowledgment sections in the relevant MS theses and in the subjects' published
article identified either a private or a corporate foundation as the funding source for the work.
Examination of subject #2's only NSF award that could possibly have been associated with the
work involved, provided no definitive evidence that NSF funds had been used by any of the
subjects for the relevant work.

       The three subjects stated that no NSF funds had been involved in the work. In addition,
the complainant was unable to provide any additional information that would show that NSF
support had been used for any of the work associated with these allegations. Because this work
was funded by private and corporate foundations, and not by NSF, we lacked jurisdiction to
pursue this allegation further.

       OIG determined that because the institution's action had corrected the literature and
because NSF could take no further action, the case should be closed.


cc: Senior Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
